No. 19-67
IN THE

hpr.emt Qtnurt nf t4e luitth &tatts
UNITED STATES OF AMERICA,

v.
EVELYN SINENENG-SMITH,

Petitioner,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CERTIFICATE OF SERVICE

I, Mark C. Fleming, a member of the bar of this Court, hereby certify that, on
this 28th day of August, 2019, all parties required to be served have been served copies
of the Brief in Opposition in this matter by overnight courier and electronic mail to the
address below.
NOELJ. FRANCISCO
SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

~~·~
'J:J,

MARK C. FLEMING
WILMER CUTLER PICKERING
HALE AND DORR LLP

60 State Street
Boston, MA 02109
(617) 526-6000
mark.fleming@wilmerhale.com

